1a
IN THE SUPREME COURT OF
THE STATE OF WASHINGTON
In the Matter of the
Personal Restraint of:
SAID OMER ALI,
Petitioner.

) No. 95578-6
) En Banc
)
) Filed September 17, 2020
)

MONTOYA-LEWIS, J.—“ ‘Children are different.’ ”
State v. Houston-Sconiers, 188 Wn.2d 1, 8, 391 P.3d 409
(2017) (quoting Miller v. Alabama, 567 U.S. 460, 480,
132 S. Ct. 2455, 183 L. Ed. 2d 407 (2012)). The Eighth
Amendment to the United States Constitution requires our criminal justice system to address this difference when punishing children. Central to this
requirement is that courts must take into account the
differences between children and adults in criminal
sentencing. State v. Ramos, 187 Wn.2d 420, 428, 387
P.3d 650 (2017). Children’s ability to assess risk and
make judgments varies distinctly from that of adults
because the brain is not fully mature before adulthood.
Miller, 567 U.S. at 471-72. Differences in brain development mean that children possess lessened culpability, poorer judgment, and greater capacity for change
than adults. Id. In order to comply with the Eighth
Amendment, courts must consider the mitigating qualities of youth and have discretion to impose a proportional punishment based on those qualities. HoustonSconiers, 188 Wn.2d at 19. In Houston-Sconiers, we
recognized these Eighth Amendment requirements
and held that “[t]rial courts must consider mitigating

2a
qualities of youth at sentencing and must have discretion to impose any sentence below the otherwise applicable [Sentencing Reform Act of 1981 (SRA), ch. 9.94A
RCW] range and/or sentence enhancements.” Id. at 21.
In this case and its companion, In re Personal Restraint of Domingo-Cornelio, No. 97205-2, slip op. (Wash.
Sept. 17, 2020), https://www.courts.wa.gov/opinions/,
we consider whether the dual requirements of HoustonSconiers apply retroactively on collateral review. We
hold that Houston-Sconiers constitutes a signiﬁcant
and material change in the law that requires retroactive application. Further, we hold that Ali has established actual and substantial prejudice, and we
remand to superior count for resentencing consistent
with Houston-Sconiers.
I.

FACTS AND PROCEDURAL HISTORY

A. Factual Background
In 2008, Said Omer Ali was arrested for his involvement in a series of robberies. Each of the crimes
involved a group of male perpetrators, and four victims
identiﬁed Ali as one of the assailants. A jury found Ali
guilty of ﬁve counts of robbery in the ﬁrst degree, two
counts of attempted robbery in the ﬁrst degree, and one
count of assault in the ﬁrst degree. Two of the robbery
counts and the assault count carried a deadly weapon

3a
enhancement. Ali was 16 years old at the time of the
crimes, but he was charged and tried in adult court.1
Under the SRA, Ali faced a sentence between 240
and 318 months for the substantive charges, plus 24
months each for 3 weapon enhancements. Because the
weapon enhancements must run consecutively under
the SRA, the standard sentence range was 312 to 390
months. RCW 9.94A.533(4)(e).
At sentencing, the State recommended imprisonment for 390 months, which was the high end of the
standard range for adults and included the three mandatory consecutive weapon enhancements. The State
argued that youth was not a factor that would justify
an exceptional sentence, citing State v. Ha’mim, 82 Wn.
App. 139, 916 P.2d 971 (1996), aff ’d, 132 Wn.2d 834,
940 P.2d 633 (1997), overruled in part by State v. O’Dell,
183 Wn.2d 680, 696, 358 P.3d 359 (2015).
Defense counsel requested an exceptional sentence of 10 years (120 months), which was below the
standard range, and argued that the presumptive
range was “grossly excessive in light of the SRA purposes and that the Court does have legal and factual
basis to impose something exceptional below that.” 13
Verbatim Report of Proceedings (Mar. 27, 2009) (VRP)
at 1419-20, 1423. The defense maintained that the
1

There was a dispute over Ali’s age at trial, but all parties
now agree that Ali was 16 years old at the time of the crimes. The
State concedes that Ali is entitled to an order correcting his date
of birth on the judgment and sentence to reﬂect his true year of
birth as 1992.

4a
mitigating factors listed in the SRA were nonexclusive
and that the court should consider Ali’s age and background. Ali was only 17 years old at sentencing, and
the State recommended a sentence of 32.5 years. Defense counsel argued that Ali was “a young adolescent”
who “endured extreme turmoil in his young life” and
that “[v]ery little will be gained by crushing his hope
and spirit by sending him away for two lifetimes.” 13
VRP at 1420-23.
Ali presented mitigating testimony regarding his
youthfulness and difﬁcult childhood. Dozens of members of his community submitted letters to the court
requesting leniency in his sentencing. Four people also
spoke on his behalf at the sentencing hearing, describing Ali as young and inexperienced but capable of reform. One community member explained that Ali “has
dealt with gang dealing and peer pressure.” 13 VRP at
1426. Another described him as “a young boy who is a
victim for his whole life, back at home and here” because Ali was born in the midst of a civil war, grew up
in refugee camps, and was placed in high school instead of middle school when he arrived in the United
States at age 13. 13 VRP at 1429. A family friend asked
the court to
look this young boy on a keen eye, give him
another chance to rebuild his life, become an
active citizen again. And I am sure he will
thrive and grow up with dignity and respect
with others and to himself. To conclude my
statement, as a father, a parent, and a

5a
humanitarian, our children make mistakes.
And he’s one of those.
13 VRP at 1428.
After hearing the statements from the community
members on Ali’s behalf, the sentencing judge explained,
Well, it’s very clear that Mr. Ali has wonderful
community and family support. These are individuals of great stature in the community
and it is clear that he has a lot of folks looking
out for him. But I can’t simply look at the popular support, I have to look at the law. And the
question is what does the law require me to
impose and is there any justiﬁcation under
the law for imposing a sentence below the
standard range. And I cannot ﬁnd that there
is any legal justiﬁcation that would allow
that. So I ﬁnd that the law requires me to impose a sentence within the standard range.
13 VRP at 1431-32. The court imposed a total sentence
of 312 months: the lowest possible sentence within the
standard range with the mandatory enhancements.
The low end of the standard range for each charge
would run concurrently, and the mandatory deadly
weapon enhancements would run consecutively. The
sentencing judge acknowledged that 312 months “is a
huge sentence for someone of your age. And I’m very
mindful of that. But the law does not allow me to depart from it simply because of your age.” 13 VRP at
1432. The court also made a point “to note, for the record that the sentence that was imposed was the lowest

6a
sentence that I legally felt I had the option of imposing
in this case. I recognize Mr. Ali’s young age and that is
primarily the reason why that was imposed.” 13 VRP
at 1436.
B.

Procedural History

Ali appealed unsuccessfully, and his judgment and
sentence became ﬁnal in 2011. Ali ﬁled this personal
restraint petition (PRP) in the Court of Appeals in
2017, asserting that his continued restraint is unlawful under RAP 16.4(c)(2). He argues that even though
it was ﬁled more than a year after his judgment and
sentence became ﬁnal, his petition is timely under
RCW 10.73.100(6)’s exception to the time bar: there
has been a signiﬁcant change in substantive law that
is material to his sentence and sufﬁcient reasons exist
to require retroactive application of the changed legal
standard. He argues that Houston-Sconiers provides a
basis both to overcome the time bar and to entitle him
to relief.
The Court of Appeals transferred his petition to
this court as a successive petition that raises new
grounds for relief. We set Ali’s petition for full consideration on the merits and also granted review of a companion case, Domingo-Cornelio, slip op. at 4.
II.

ANALYSIS

Ali was sentenced as an adult for crimes he committed as a child. He seeks collateral review of that

7a
sentence. He ﬁled this PRP more than one year after
his judgment and sentence became ﬁnal, so the petition is untimely unless it is based solely on a statutory
exception to the time bar. RCW 10.73.090, .100. Ali relies on the exception for a signiﬁcant change in the law
that is material to his sentence and requires retroactive application. RCW 10.73.100(6). Ali argues he can
overcome the time bar and is entitled to relief based on
Houston-Sconiers. We agree.
In Houston-Sconiers, we held that when juveniles
are adjudicated as adults, “[t]rial courts must consider
mitigating qualities of youth at sentencing and must
have discretion to impose any sentence below the otherwise applicable SRA range and/or sentence enhancements.” 188 Wn.2d at 21 (emphasis added). There, 16and 17-year-old defendants were adjudicated as adults
for a series of robberies they committed on Halloween.
Id. at 8. The charges triggered the mandatory automatic decline statute, RCW 13.04.030(1)(e)(v), and
both defendants were tried and convicted as adults. Id.
at 12. Each was convicted of several counts of robbery
in the ﬁrst degree, one count of conspiracy to commit
robbery, one count of assault in the second degree, and
multiple ﬁrearm enhancements. Id. Under the SRA,
one defendant faced a sentencing range of 501-543
months, which included 372 months for the ﬁrearm enhancements; the other faced a sentencing range of 441483 months, which included 312 months for the ﬁrearm enhancements. Id. at 12-13. The State recommended, and the trial court accepted, an exceptional
sentence below the standard range: zero months on

8a
each of the substantive counts for both defendants. Id.
at 13. The defendants received 372 and 312 months,
respectively, the full time for the consecutive weapon
enhancements. Id. At sentencing, the judge heard mitigating testimony regarding both defendants’ youth
but “expressed frustration at his inability to exercise
greater discretion over the sentences imposed.” Id. The
Court of Appeals afﬁrmed the convictions and rejected
the defendants’ challenges to their sentences. Id.
On review, we traced the United States Supreme
Court’s recent decisions that “explicitly hold that the
Eighth Amendment to the United States Constitution
compels us to recognize that children are different.” Id.
at 18; see, e.g., Miller, 567 U.S. at 479-80 (the Eighth
Amendment forbids mandatory sentences of life without parole (LWOP) for juvenile offenders); Graham v.
Florida, 560 U.S. 48, 74, 130 S. Ct. 2011, 176 L. Ed. 2d
825 (2010) (the Eighth Amendment forbids LWOP for
non-homicide juvenile offenders); Roper v. Simmons,
543 U.S. 551, 578, 125 S. Ct. 1183, 161 L. Ed. 2d 1
(2005) (the Eighth Amendment forbids the death penalty for juvenile offenders). “In each case, [Roper, Graham, and Miller,] the Court found that legitimate
penological goals failed to justify the sentences [that
it] invalidated as applied to youth.” Id. at 19 n.4. Those
cases held that certain punishments are impermissible
because of three signiﬁcant differences between children and adults: (1) juveniles are more likely to possess
a “lack of maturity and an underdeveloped sense of responsibility . . . [and t]hese qualities often result in impetuous and ill-considered actions and decisions,” (2)

9a
“juveniles are more vulnerable or susceptible to negative inﬂuences and outside pressures, including peer
pressure,” and (3) “the character of a juvenile is not as
well formed as that of an adult [and t]he personality
traits of juveniles are more transitory, less ﬁxed,” and
more capable of reform. Roper, 543 U.S. at 569-70 (citing studies).
In Houston-Sconiers, we recognized that those
cases invalidated certain sentences for juvenile offenders because children have diminished culpability,
which renders some punishments “unconstitutionally
disproportionate for youth.” 188 Wn.2d at 19 n.4. We
concluded that
[t]hese cases make two substantive rules of
law clear: ﬁrst, “that a sentencing rule permissible for adults may not be so for children,”
rendering certain sentences that are routinely
imposed on adults disproportionately too
harsh when applied to youth, and second, that
the Eighth Amendment requires another protection, besides numerical proportionality, in
juvenile sentencings—the exercise of discretion.
Id. (citation omitted) (quoting Miller, 567 U.S. at 481).
We held that “sentencing courts must have complete
discretion to consider mitigating circumstances associated with the youth of any juvenile defendant, even in
the adult criminal justice system. . . . To the extent our
state statutes have been interpreted to bar such discretion with regard to juveniles, they are overruled.”
Id. at 21 (footnote omitted) (citing State v. Brown, 139

10a
Wn.2d 20, 29, 983 P.2d 608 (1999)). Finally, we held
that “[t]rial courts must consider mitigating qualities
of youth at sentencing and must have discretion to impose any sentence below the otherwise applicable SRA
range and/or sentence enhancements.” Id. (emphasis
added).
Following Miller, Graham, and Roper, HoustonSconiers identiﬁed a category of sentences that are beyond courts’ authority to impose: adult standard SRA
ranges and enhancements that would be disproportionate punishment for juveniles with diminished culpability. Recognizing that “legitimate penological goals
fail[ ] to justify” certain sentences as applied to youth,
we held that courts must exercise discretion and consider the mitigating qualities of youth to determine
whether standard SRA ranges and enhancements are
proportionate for a particular juvenile in order to avoid
imposing unconstitutionally disproportionate sentences. Id. at 19 n.4. Thus, we recognized that the
Eighth Amendment requires that the sentencing judge
consider the defendant’s youthfulness and retain absolute discretion to impose a lower sentence. Id. at 34.
Not long after we decided Houston-Sconiers, we
accepted review of In re Personal Restraint of Meippen,
193 Wn.2d 310, 440 P.3d 978 (2019). A majority of the
court declined to reach the question of retroactivity in
that case, instead holding that “[e]ven assuming Meippen can show that Houston-Sconiers is a signiﬁcant,
material change in the law that applies retroactively,
[the petitioner was] not entitled to collateral relief because he [did] not demonstrate that any error actually

11a
and substantially prejudiced him.” Id. at 312. As discussed below, Ali does demonstrate actual and substantial prejudice, so we must decide whether
Houston-Sconiers is a signiﬁcant and material change
in the law that requires retroactive application.2
A. Houston-Sconiers Requires Retroactive Application
Under RCW 10.73.100(6), the one year time limit
to ﬁle a PRP does not apply when a petition is based
on a signiﬁcant change in the law, which is material to
the conviction or sentence, and sufﬁcient reasons exist
to require retroactive application of the changed legal
standard. Houston-Sconiers constitutes such a change
in the law, and Ali’s PRP is, therefore, timely.

2

Although we assumed without deciding the retroactivity
question in Meippen and dismissed that PRP based on the petitioner’s failure to establish prejudice, we are not required to conduct the analysis in that order. Whether a PRP is exempt from
the one year time limit under RCW 10.73.090 “is a threshold inquiry; we do not have to decide whether the entire claim is completely meritorious in order to decide whether it ﬁts within an
exception to the time bar.” In re Pers. Restraint of Schorr, 191
Wn.2d 315, 320, 422 P.3d 451 (2018) (citing In re Pers. Restraint
of Yung-Cheng Tsai, 183 Wn.2d 91, 99-108, 351 P.3d 138 (2015)).
“To actually obtain relief on collateral review based on a constitutional error the petitioner must demonstrate [prejudice] by a preponderance of the evidence.” In re Pers. Restraint of Davis, 152
Wn.2d 647, 671, 101 P.3d 1 (2004) (emphasis added).

12a
1.

Significant Change in the Law

Houston-Sconiers represents a signiﬁcant change
in the law because it requires the sentencing court to
consider the youthfulness of the defendant. A signiﬁcant change in the law exists “when an intervening appellate decision overturns a prior appellate decision
that was determinative of a material issue.” State v.
Miller, 185 Wn.2d 111, 114, 371 P.3d 528 (2016) (citing
In re Pers. Restraint of Yung-Cheng Tsai, 183 Wn.2d 91,
104, 351 P.3d 138 (2015)). Prior to Houston-Sconiers,
we held that the SRA “deprives a sentencing court of
discretion to impose an exceptional sentence downward below the time speciﬁed for a mandatory deadly
weapon enhancement.” Brown, 139 Wn.2d at 22. Under
Brown, Ali’s sentencing court was required to run each
of his weapon enhancements consecutively and had no
discretion to run them concurrently. In HoustonSconiers, we stated explicitly that we overruled any interpretation that would bar such discretion with regard to juveniles, citing to Brown and recognizing that
the case failed to address juveniles. 188 Wn.2d at 21
n.5. Prior to Houston-Sconiers, sentencing courts did
not have discretion to consider the defendant’s age at
sentencing as a basis to run weapon enhancements
concurrently. Thus, Houston-Sconiers is a signiﬁcant
change in the law because it overruled Brown.
Another “ ‘test to determine whether an [intervening case] represents a signiﬁcant change in the law is
whether the defendant could have argued this issue
before publication of the decision.’ ” Miller, 185 Wn.2d
at 115 (alteration in original) (internal quotation

13a
marks omitted) (quoting In re Pers. Restraint of Lavery,
154 Wn.2d 249, 258-59, 111 P.3d 837 (2005)). Even if
Ali’s sentencing court had discretion to run the sentence enhancements concurrently before HoustonSconiers, Ali could not have argued that the court
must consider the mitigating factors of his youthfulness and that it had absolute discretion to impose any
sentence below the applicable SRA range and sentence
enhancements. 188 Wn.2d at 21. Ali could have, and
did, argue that the court had some discretion and that
it should consider youthfulness. But before HoustonSconiers, he could not have argued that the court was
required to consider youthfulness and could impose a
lesser sentence based on youth. Under either test proffered to demonstrate a signiﬁcant change in the law,
Houston-Sconiers qualiﬁes.
2.

Materiality

Houston-Sconiers is material to Ali’s case. Ali was
sentenced to a standard adult range under the SRA,
which included mandatory consecutive weapon enhancements, just as in Houston-Sconiers. If HoustonSconiers applies retroactively, it would affect a materially determinative issue in Ali’s petition: whether the
sentencing judge had discretion to impose a lower sentence given the mitigating testimony regarding his
youthfulness. The sentencing judge heard testimony
and argument regarding Ali’s youthfulness but felt
that she had no discretion to impose any sentence below the bottom of the standard range, explaining that
“the law does not allow me to depart from it simply

14a
because of your age.” 13 VRP at 1432. If HoustonSconiers applies retroactively, it would materially affect Ali’s sentence because it would allow the sentencing judge discretion to run the weapon enhancements
concurrently or impose any exceptional sentence
downward based on youthfulness.3 Ali received the
kind of sentence that implicates Houston-Sconiers;
therefore, that case is material.
The State argues that Houston-Sconiers is a signiﬁcant change in the law but is not material to Ali’s
case because Houston-Sconiers is limited to effective
life sentences. Nothing in Houston-Sconiers limited the
holding to life sentences or the functional equivalent.
In fact, one of the defendants in Houston-Sconiers received a sentence of 312 months, the same as Ali. 188
Wn.2d at 13. We explicitly stated that “sentencing
courts must have complete discretion to consider mitigating circumstances associated with the youth of any
juvenile defendant, even in the adult criminal justice
system,” and that “[t]rial courts must consider mitigating qualities of youth at sentencing and must have discretion to impose any sentence below the otherwise
applicable SRA range and/or sentence enhancements.”
Id. at 21 (emphasis added).4 Houston-Sconiers applies
3

If, for example, the sentencing judge had run enhancements concurrently, the sentence would have been shortened by
48 months.
4
See also State v. Gilbert, 193 Wn.2d 169, 175-76, 438 P.3d
133 (2019) (“Our opinion in [Houston-Sconiers] cannot be read as
conﬁned to the ﬁrearm enhancement statutes as it went so far as
to question any statute that acts to limit consideration of the mitigating factors of youth during sentencing.”).

15a
to adult standard range sentences as well as mandatory enhancements under the SRA imposed for crimes
committed while the defendant was a child. This is material to Ali’s case because he was sentenced as an
adult under the SRA for crimes he committed as a
child.
3.

Retroactivity

Houston-Sconiers announced a new substantive
constitutional rule that must be applied retroactively
upon collateral review. Washington courts follow the
test laid out in Teague v. Lane, 489 U.S. 288, 109 S. Ct.
1060, 103 L. Ed. 2d 334 (1989) to determine whether a
rule applies retroactively. See In re Pers. Restraint of
Colbert, 186 Wn.2d 614, 623-26, 380 P.3d 504 (2016).
Under Teague, a new rule applies retroactively on collateral review only if it is a new substantive rule of
constitutional law or a watershed rule of criminal procedure. Montgomery v. Louisiana, ___ U.S. ___, 136
S. Ct. 718, 728, 193 L. Ed. 2d 599 (2016). HoustonSconiers applies retroactively because it announced
(1) a new rule (2) of constitutional magnitude (3) that
is substantive.
First, Houston-Sconiers announced a new rule.
Whether there is a “new rule” under Teague is a distinct inquiry from whether there has been a signiﬁcant
change in the law. Tsai, 183 Wn.2d at 103-05. A new
rule is one that breaks new ground or imposes a new
obligation, or “ ‘if the result was not dictated by precedent existing at the time the defendant’s conviction

16a
became ﬁnal.’ ” Id. at 104 (internal quotation marks
omitted) (quoting State v. Evans, 154 Wn.2d 438, 444,
114 P.3d 627 (2005)). “ ‘If before the opinion is announced, reasonable jurists could disagree on the rule
of law, the rule is new.’ ” Id. (quoting Evans, 154 Wn.2d
at 444). The dual mandates of Houston-Sconiers, that
sentencing courts must consider youth and must have
discretion to impose any exceptional sentence downward based on youth, were not dictated by existing
precedent at the time Ali’s conviction became ﬁnal.
Reasonable jurists could disagree whether the court
had such discretion or whether they could consider
youth; however, because no prior precedent required
courts to do so, Houston-Sconiers announced a new
rule.
Second, we decided Houston-Sconiers on constitutional grounds. We concluded that “the Eighth Amendment to the United States Constitution compels us to
recognize that children are different” and “courts must
address those differences in order to comply with the
Eighth Amendment[ ] with discretion to consider the
mitigating qualities of youth.” Houston-Sconiers, 188
Wn.2d at 18-19. We reached this conclusion based on
rules stemming from Roper, Graham, and Miller,
which we identiﬁed as “substantive rules”: some sentences routinely imposed on adults are disproportionately too harsh when imposed on children who lack
adult culpability, and the Eighth Amendment requires
the exercise of discretion in order to protect such children from disproportionate punishment. Id. at 19 n.4.

17a
Third, Houston-Sconiers announced a substantive
constitutional rule. “Substantive rules . . . set forth categorical constitutional guarantees that place certain
criminal laws and punishments altogether beyond
the State’s power to impose” and include “ ‘rules prohibiting a certain category of punishment for a class of
defendants because of their status or offense.’ ” Montgomery, 136 S. Ct. at 729, 728 (quoting Penry v.
Lynaugh, 492 U.S. 302, 330, 109 S. Ct. 2934, 106
L. Ed. 2d 256 (1989), abrogated on other grounds by Atkins v. Virginia, 536 U.S. 304, 122 S. Ct. 2242, 153
L. Ed. 2d 335 (2002)). “Procedural rules, in contrast,
are designed to enhance the accuracy of a conviction or
sentence by regulating ‘the manner of determining the
defendant’s culpability.’ ” Id. at 730 (quoting Schriro v.
Summerlin, 542 U.S. 348, 353, 124 S. Ct. 2519, 159
L. Ed. 2d 442 (2004)). Houston-Sconiers established a
category of punishments that are prohibited: adult
standard SRA ranges and enhancements that would
be disproportionate punishment for juveniles who possess diminished culpability. It also established a mechanism necessary to effectuate that substantive rule:
sentencing courts must consider the mitigating qualities of youth and have discretion to impose sentences
below what the SRA mandates.
Following Miller, Graham, and Roper, HoustonSconiers recognized that “legitimate penological goals
fail[ ] to justify” certain sentences as applied to youth,
and courts must have the discretion to impose sentences below the SRA, proportionate to the individual’s
culpability. 188 Wn.2d at 19 n.4. Without the context of

18a
a defendant’s youthfulness and the discretion to impose something less than what the SRA mandates,
sentencing courts cannot protect juveniles’ Eighth
Amendment right to be free from unconstitutionally
disproportionate punishment. The discretion and consideration that Houston-Sconiers requires are necessary to effectuate the substantive rule that certain
punishments routinely imposed on adults are unconstitutional as applied to youth.
Miller and Montgomery compel the conclusion
that Houston-Sconiers is a new substantive constitutional rule. Miller held that mandatory LWOP sentences for juveniles violate the Eighth Amendment
because “[b]y making youth (and all that accompanies
it) irrelevant to imposition of that harshest prison
sentence, such a scheme poses too great a risk of disproportionate punishment.” 567 U.S. at 479. In Montgomery, the Supreme Court explained that “Miller took
as its starting premise the principle established in
Roper and Graham that ‘children are constitutionally
different from adults for purposes of sentencing.’ ” 136
S. Ct. at 733 (quoting Miller, 567 U.S. at 471). The
Court concluded that mandatory LWOP for children
constitutes cruel and unusual punishment because
those differences “result from children’s ‘diminished
culpability and greater prospects for reform,” and “ ‘the
distinctive attributes of youth diminish the penological
justiﬁcations’ ” for imposing certain punishments on
juveniles. Id. (quoting Miller, 567 U.S. at 471-72). A life
sentence for a child is rarely constitutional, and the
sentencing court must exercise discretion and consider

19a
youth and its effect on a child’s culpability and capacity
for change in order to distinguish between “children
whose crimes reﬂect transient immaturity and those
rare children whose crimes reﬂect irreparable corruption.” Id. at 734.5
The same constitutional principles form the foundation of Houston-Sconiers. In Houston-Sconiers, we
recognized that the Eighth Amendment compels courts
to treat children differently from adults because the legitimate penological goals fail to justify certain sentences for juveniles in light of the mitigating qualities
of youth. 188 Wn.2d at 18. We concluded that the
Eighth Amendment requires courts to consider the
mitigating qualities of youth at sentencing and to have
absolute discretion to impose anything less than the
standard adult sentence because children possess diminished culpability, and “certain sentences that are
routinely imposed on adults [are] disproportionately
too harsh when applied to youth.” Id. at 18, 19 n.4.
Houston-Sconiers is substantive because it placed
certain adult sentences beyond courts’ authority to
impose on juveniles who possess such diminished

5

As the dissent correctly acknowledges, Miller contained
both a substantive and a procedural component: Miller categorically banned LWOP for juveniles whose crimes reﬂect the transient immaturity of youth and required the exercise of discretion
as the mechanism to protect that substantive rule. Like Miller,
Houston-Sconiers’s procedural component (consideration of youth
and discretion to impose sentences below the SRA) is necessary
to achieve the substantive protection (punishment proportionate
to culpability).

20a
culpability that the adult standard SRA ranges and
enhancements would be disproportionate punishment.
The fact that a juvenile could receive a sentence
within the adult standard range if the sentencing court
complies with the dual requirements of HoustonSconiers does not render Houston-Sconiers procedural.
Miller did not foreclose a sentencing court’s ability to
impose LWOP on all juveniles; it acknowledged that
such a punishment may be appropriate for “ ‘the rare
juvenile offender whose crime reﬂects irreparable corruption,’ ” as long as the sentencing court takes the defendant’s youth into consideration as the Eighth
Amendment requires. Miller, 567 U.S. at 479-80 (quoting Roper, 543 U.S. at 573). But the sentencing court
must engage in this consideration in order to determine whether the juvenile falls within the category of
people for whom such a severe and rarely imposed
punishment would be permissible. Similarly, under
Houston-Sconiers, sentencing courts must exercise discretion and consider youth to determine whether the
child falls within the category of juveniles for whom
standard adult sentences or enhancements are permissible. Like in Miller, Houston-Sconiers announced a
procedural component as a mechanism to protect the
substantive rule. The substantive protection of proportionate punishment ceases to exist without the mechanism to determine whether the juvenile belongs in
the class of culpability that would allow adult sentences versus the more likely outcome of a sentence
that reﬂects the juvenile’s immaturity. This does not

21a
transform Houston-Sconiers’s substantive rule into a
procedural rule.
In Montgomery, the Supreme Court held that
Miller was not procedural because it “did more than
require a sentencer to consider a juvenile offender’s
youth before imposing life without parole; it established that the penological justifications for life
without parole collapse in light of ‘the distinctive attributes of youth.’ ” 136 S. Ct. at 734 (quoting Miller,
567 U.S. at 472). In reaching that conclusion, the Court
rejected the State’s argument that Miller announced a
procedural rule because it mandated a process of considering youth before imposing a particular sentence.
Id. at 734. The Court explained that that argument
conﬂates a procedural requirement necessary
to implement a substantive guarantee with a
rule that “regulate[s] only the manner of determining the defendant’s culpability.” There
are instances in which a substantive change
in the law must be attended by a procedure
that enables a prisoner to show that he falls
within the category of persons whom the law
may no longer punish. . . . Those procedural
requirements do not, of course, transform substantive rules into procedural ones.
Id. at 734-35 (alteration in original) (citations omitted)
(quoting Schriro, 542 U.S. at 353). The Court concluded
that Miller announced a substantive rule of constitutional law because “it rendered life without parole an
unconstitutional penalty for ‘a class of defendants because of their status’—that is, juvenile offenders

22a
whose crimes reﬂect the transient immaturity of
youth.” Id. at 734 (quoting Penry, 492 U.S. at 330).
Our holding in Houston-Sconiers contains the
same substantive and procedural components as Miller.
Houston-Sconiers followed Miller and its progeny,
which centered on the substantive guaranty of the
Eighth Amendment: punishment proportionate to culpability. Montgomery, 136 S. Ct. at 732-33 (“Protection
against disproportionate punishment is the central
substantive guarantee of the Eighth Amendment and
goes far beyond the manner of determining a defendant’s sentence.”). Like Miller, Houston-Sconiers includes a procedural component that speciﬁes a method
of achieving its substantive requirement: courts must
consider youthfulness with the knowledge that they
have absolute discretion to impose any sentence less
than the standard adult sentence based on a ﬁnding of
diminished culpability due to youth.
Again, this does not render Houston-Sconiers procedural. Rather than merely establishing a manner of
determining the defendants’ culpability, HoustonSconiers prohibits certain punishments when imposed
without the consideration and discretion that the
Eighth Amendment requires. See Montgomery, 136
S. Ct. at 735 (“The hearing does not replace but rather
gives effect to Miller’s substantive holding that life
without parole is an excessive sentence for children
whose crimes reﬂect transient immaturity.”). HoustonSconiers prohibits a certain category of punishment
(adult standard SRA ranges and enhancements) for a
class of juvenile defendants because of their status

23a
(juveniles who possess such diminished capacity that
those punishments would be unconstitutionally disproportionate). That Houston-Sconiers prohibits a
broader category of punishments than LWOP or an effective life sentence is inapposite. The difference is one
of scope, not of kind.6 Like Miller, Houston-Sconiers
protects juveniles from receiving certain disproportionate sentences. Houston-Sconiers rendered certain
adult sentences beyond the courts’ authority to impose
on juveniles who possess such diminished culpability
that the standard SRA ranges and sentences would be
disproportionate punishment. The Eighth Amendment
requires both consideration of youthfulness and absolute discretion in order to avoid imposing unconstitutionally disproportionate sentences on juveniles.
Houston-Sconiers announced a new substantive rule
that must be applied retroactively.
Houston-Sconiers satisﬁes RCW 10.73.100(6)’s exemption to the time bar: (1) it constitutes a signiﬁcant
change in the law (2) that is material to Ali’s sentence
and (3) requires retroactive application. Therefore,
6

To the extent the dissent argues that Houston-Sconiers is
not substantive because, as it contends, the reasoning of Roper,
Graham, and Miller should not apply to lesser sentences, the dissent’s dispute is with the holding of Houston-Sconiers itself, not
with our conclusion about the substantive nature of that holding.
In order for us to reconsider an established rule of law that is otherwise entitled to stare decisis, there must be a clear showing that
the rule is incorrect and harmful, or that the legal underpinnings
have changed or disappeared altogether. State v. Pierce, 195
Wn.2d 230, 240, 455 P.3d 647 (2020) (plurality opinion). No party
has argued that Houston-Sconiers is incorrect and harmful, or
that its legal underpinnings have changed, nor does the dissent.

24a
Ali’s PRP is timely under RCW 10.73.100(6), and he
may be entitled to relief. In order to obtain relief, he
must show that he was actually and substantially prejudiced by the error in sentencing and there are no
other adequate remedies available under the circumstances.
B.

Ali Demonstrates Actual and Substantial
Prejudice

“We have three available options when reviewing
a personal restraint petition: (1) dismiss the petition,
(2) transfer the petition to a superior court for a full
determination on the merits or a reference hearing, or
(3) grant the petition.” In re Pers. Restraint of Yates, 177
Wn.2d 1, 17, 296 P.3d 872 (2013). A petitioner must
demonstrate by a preponderance of the evidence that
he was actually and substantially prejudiced by the
constitutional error in order to obtain relief on collateral review. In re Pers. Restraint of Davis, 152 Wn.2d
647, 671-72, 101 P.3d 1 (2004). A reference hearing “is
appropriate where the petitioner makes the required
prima facie showing, but ‘the merits of the contentions
cannot be determined solely on the record.’ ” Yates, 177
Wn.2d at 18 (quoting In re Pers. Restraint of Hews, 99
Wn.2d 80, 88, 660 P.2d 263 (1983)).
In Houston-Sconiers, we explained that the sentencing court should have considered
mitigating circumstances related to the defendant’s youth—including age and its “hallmark features,” such as the juvenile’s

25a
“immaturity, impetuosity, and failure to appreciate risks and consequences.” It must also
consider factors like the nature of the juvenile’s surrounding environment and family
circumstances, the extent of the juvenile’s participation in the crime, and “the way familial
and peer pressures may have affected him [or
her.]” And it must consider how youth impacted any legal defense, along with any factors suggesting that the child might be
successfully rehabilitated.
188 Wn.2d at 23 (alteration in original) (citations omitted) (quoting Miller, 567 U.S. at 477); see also Gilbert,
193 Wn.2d at 176. We also held that “sentencing courts
must have absolute discretion to depart as far as they
want below otherwise applicable SRA ranges and/or
sentencing enhancements.” Houston-Sconiers, 188
Wn.2d at 9.
Ali has demonstrated actual and substantial prejudice. His sentencing judge was presented with, and
considered, testimony and evidence regarding the mitigating factors of Ali’s youthfulness, but she found that
she lacked the discretion to impose an exceptional sentence downward based on those mitigating factors. The
State requested a high end standard sentence of 390
months. Ali’s defense counsel requested an exceptional
downward sentence of 10 years (120 months), arguing
that Ali was a “young adolescent” at the time of the
crimes, and “[v]ery little will be gained by crushing his
hope and spirit by sending him away for two lifetimes,
which is what the State is asking for.” 13 VRP at 1420,
1422. Ali presented letters and testimony from

26a
members of his community, who referenced his age, inexperience, and susceptibility to peer pressure, and the
fact that “children make mistakes.” 13 VRP at 1424-29.
Ali has demonstrated prejudice by a preponderance of the evidence. The judge imposed 312 months,
the minimum sentence she had discretion to impose
under the SRA. She imposed the lowest available sentence after hearing and considering testimony from
family, friends, and community members who knew Ali
well and described his inexperience, challenges with
peer pressure, and potential for rehabilitation. She
made a point to note for the record that she was imposing what she believed to be the lowest available sentence and that Ali’s age was the primary reason she
imposed the low end sentence.
Ali’s case is unlike Meippen, where the sentencing
judge imposed a high end standard range sentence but
said nothing about whether his discretion was limited
to the standard range and, instead, emphasized his
reasons for imposing a sentence at the high end of the
range. 193 Wn.2d at 313. While nothing in the record
in Meippen suggested that the sentencing judge would
have exercised discretion to depart from the SRA in
light of the defendant’s youth, id. at 317, here, the sentencing judge made a point to state that she was ordering the lowest sentence she had discretion to and that
she was doing so primarily because of Ali’s age.
Ali’s sentencing comported with only one of the
two constitutional requirements we announced in
Housion-Sconiers. The sentencing judge considered the

27a
mitigating factors of Ali’s youth and arguments for an
exceptional sentence, but because she did not have the
discretion to impose any sentence below the standard
SRA range and mandatory enhancements, she sentenced according to the SRA’s mandates for adult sentencing. Based on the record, it appears that more
likely than not, the judge would have imposed a lower
sentence had she understood that the Eighth Amendment requires absolute discretion to impose any sentence below the standard range based on youthful
diminished culpability. Since Houston-Sconiers applies
retroactively, Ali was actually and substantially prejudiced by the sentencing court’s (understandable) error.
C.

Ali Is Entitled to Resentencing

A court will only grant relief by a PRP if other remedies available to the petitioner are inadequate under
the circumstances. RAP 16.4(d). The State argues that
Washington’s Miller-ﬁx statute, RCW 9.94A.730, is an
adequate remedy because it would allow Ali to petition
for early release after serving 20 years of his 26 year
sentence. We disagree.
The Miller-ﬁx statute does not necessarily provide
a remedy to a Houston-Sconiers violation. RCW 9.94A.730
permits a person convicted of crimes committed when
they were under 18 years old to petition for early release after serving 20 years in conﬁnement. After receiving the petition, the Department of Corrections
will assess the petitioner’s dangerousness and the
likelihood that they will engage in future criminal

28a
behavior. RCW 9.94A.730(3). The assessment at this
stage is not whether the person possessed adult culpability at the time of the crimes but whether they pose
a continued danger after 20 years of incarceration. In
Houston-Sconiers, we emphasized that sentencing
courts must consider the mitigating qualities of youth
and have absolute discretion “at the time of sentencing
itself, regardless of what opportunities for discretionary release may occur down the line.” 188 Wn.2d at 20
(emphasis added). We acknowledged that “[s]tatutes
like RCW 9.94A.730 may provide a remedy on collateral review,” but we viewed that statute as “just one
possible remedy . . . on postconviction review.” Id. at 23,
22 (emphasis added).
Additionally, Houston-Sconiers applies to all juveniles sentenced as adults under the SRA, including
those who received far less than life sentences. Id. at
21. While RCW 9.94A.730 might provide an adequate
remedy for a Miller violation, it may be grossly inadequate under the circumstances of a Houston-Sconiers
violation. As explained above, Houston-Sconiers is not
limited to life sentences, and, in this case, the Millerfix statute would still require Ali to serve most of
the sentence imposed in violation of Houston-Sconiers
before he could even be considered for early release.
Although Miller is limited to life sentences and de facto
life sentences, Houston-Sconiers applies to any adult
standard sentence imposed on a juvenile, so RCW

29a
9.94A.730 cannot provide an adequate remedy under
all circumstances.7
A statute that permits early release after 20 years
of incarceration based on rehabilitation is not always
an adequate remedy when a sentencing court fails to
comply with the dual mandates of Houston-Sconiers.
That case announced a rule requiring something more
than Miller. It is imperative for courts to consider
youthfulness at sentencing and for courts to have absolute discretion to impose any sentence below the
SRA, including as little as no prison time, for crimes
committed by children. Thus, under Houston-Sconiers,
Ali’s sentencing range went from 312-390 months to
0-390 months. RCW 9.94A.730 would permit Ali to petition for early release only after serving 240 months
of the 312 month sentence imposed in violation of
Houston-Sconiers. Under these circumstances, other
available remedies are inadequate, and Ali is entitled
to resentencing.

7

Compare State v. Scott, 190 Wn.2d 586, 594, 416 P.3d 1182
(2018) (the Miller-ﬁx statute provided an adequate remedy for a
juvenile sentenced to 900 months because it transformed a de
facto life sentence without the possibility of parole to a life sentence with “ ‘some meaningful opportunity to obtain release based
on demonstrated maturity and rehabilitation’ ”) (quoting Miller,
567 U.S. at 479), with Domingo-Cornelio, slip op. at 14 n.8 (the
Miller-ﬁx statute would not provide an adequate remedy for a petitioner sentenced to 20 years because it would not allow early
release until he served the full sentence imposed in violation of
Houston-Sconiers).

30a
III.

CONCLUSION

We hold that Houston-Sconiers is a signiﬁcant and
material change in the law and that it announced a
new substantive constitutional rule that must be applied retroactively upon collateral review. Ali has established actual and substantial prejudice, and his
PRP is granted. We remand to superior court for resentencing consistent with Houston-Sconiers.
/s/ Montoya-Lewis, J

WE CONCUR:
/s/ González, J.
/s/ Gordon McCloud, J.
/s/ Yu, J.
/s/ Owens, J

/s/ Wiggins, JPT

JOHNSON, J. (dissenting)—I disagree with the majority’s conclusion that our cases establish a substantive
rule of constitutional interpretation requiring retroactive application—though I agree our cases can be read
to establish a procedural factor requiring sentencing
judges to consider general qualities of youth in considering the discretionary sentencing decision. Our cases,
however, also recognize that the sentencing framework

31a
under the Sentencing Reform Act of 1981, ch. 9.94A
RCW, continues to guide sentencing decisions for juveniles in adult court. In order to maintain principles of
consistency and ﬁnality in sentencing, I view our cases
as establishing additional procedural factors applicable to the sentencing process, and, as being procedural
not retroactive. I dissent.
ANALYSIS
This case asks us to decide whether State v. HoustonSconiers, 188 Wn.2d 1, 391 P.3d 409 (2017), announced
a new, substantive rule of constitutional law that applies retroactively. There, we held that “courts must
consider mitigating qualities of youth at sentencing
and must have discretion to impose any sentence below the otherwise applicable [Sentencing Reform Act
of 1981] range and/or sentence enhancements.” HoustonSconiers, 188 Wn.2d at 21. The majority reasons that
Houston-Sconiers must apply retroactively because it
established the same kinds of substantive and procedural components as the United States Supreme
Court’s decision in Miller v. Alabama, 567 U.S. 460, 132
S. Ct. 2455, 183 L. Ed. 2d 407 (2012), and Miller applies retroactively. See Montgomery v. Louisiana, ___
U.S. ___, 136 S. Ct. 718, 732, 193 L. Ed. 2d 599 (2016).
I disagree.
In my view, Houston-Sconiers does not contain a
substantive rule because, unlike Miller, it does not set
a category of punishment altogether beyond the State’s
power to impose for a class of offenders. To understand

32a
the distinction between substantive and procedural
rules, we must engage with the Eighth Amendment
analysis at the heart of the United States Supreme
Court’s juvenile sentencing decisions. U.S. CONST.
amend. VIII.
The United States Supreme Court has told us that
the Eighth Amendment prohibits cruel and unusual
punishments, including “ ‘extreme sentences that are
grossly disproportionate to the crime.’ ” Graham v.
Florida, 560 U.S. 48, 60, 130 S. Ct. 2011, 176 L. Ed. 2d
825 (2010) (internal quotations marks omitted) (quoting Harmelin v. Michigan, 501 U.S. 957, 1001, 111
S. Ct. 2680 115 L. Ed. 2d 836 (1991) (controlling opinion of Kennedy, J., concurring in part and concurring
in judgment)). Miller implicated two lines of United
States Supreme Court precedent regarding the proportionality of punishments. 567 U.S. at 470.
The ﬁrst line of precedent “has adopted categorical
bans on sentencing practices based on mismatches
between the culpability of a class of offenders and the
severity of a penalty.” Miller, 567 U.S. at 470. These
categorical bans create substantive rules of constitutional law: they place certain punishments “altogether
beyond the State’s power to impose.” Montgomery, 136
S. Ct. at 729. Substantive rules are retroactive because
when the State imposes an unconstitutional sentence,
that punishment is always unlawful. When a substantive rule has eliminated the State’s power to impose a
particular punishment, the “possibility of a valid result
does not exist”—even “the use of ﬂawless sentencing
procedures [cannot] legitimate a punishment where

33a
the Constitution immunizes the defendant from the
sentence imposed.” Montgomery, 136 S. Ct. at 730.
The second line of precedent holds that sentencing
laws that make the harshest punishments mandatory
pose “too great a risk of disproportionate punishment,”
so those sentences can be imposed only when a sentencing court is able to “consider the characteristics of
a defendant and the details of his offense” to ensure
the harshness of the punishment matches the individual offender’s culpability for the crime. Miller, 567 U.S.
at 479, 470. These cases condition the imposition of the
law’s harshest sentences on a particular procedure—
namely, a sentencing judge’s consideration of the offender’s individual culpability—“to enhance the accuracy of a . . . sentence by regulating ‘the manner of
determining the defendant’s culpability.’ ” Montgomery,
136 S. Ct. at 730 (quoting Schriro v. Summerlin, 542
U.S. 348, 353, 124 S. Ct. 2519, 159 L. Ed. 2d 442
(2004)). New procedural rules are generally not retroactive because they merely enhance the accuracy of
future sentencing rather than taking a category of
punishments out of the State’s hands altogether. Accordingly, the announcement of a new procedural rule
does not “have the automatic consequence of invalidating a defendant’s conviction or sentence.” Montgomery,
136 S. Ct. at 730. Automatically invalidating sentences
imposed under procedures that were understood to be
constitutional at the time would “seriously undermine
[ ] the principle of ﬁnality which is essential to the operation of our criminal justice system” and deprive
criminal law “of much of its deterrent effect.” Teague v.

34a
Lane, 489 U.S. 288, 309, 109 S. Ct. 1060, 103 L. Ed. 2d
334 (1989).
Drawing from both lines of precedent, in my view,
Miller announced both a new substantive rule and a
new procedural requirement. Miller’s substantive rule
“rendered life without parole an unconstitutional penalty for ‘a class of defendants because of their status’—
that is, juvenile offenders whose crimes reﬂect the
transient immaturity of youth”—because the distinctive attributes of youth are inconsistent with the penological justiﬁcations for imposing life without parole.
Montgomery, 136 S. Ct. at 734 (quoting Penry v.
Lynaugh, 492 U.S. 302, 330, 109 S. Ct. 2934, 106
L. Ed. 2d 256 (1989)). In order to enforce that categorical constitutional guaranty, Miller’s procedural component requires a sentencing judge to consider a
juvenile offender’s youth and attendant characteristics
“to separate those juveniles who may be sentenced to
life without parole from those who may not.” Montgomery, 136 S. Ct. at 735. These rules work together: “when
the Constitution prohibits a particular form of punishment for a class of persons, an affected prisoner receives a procedure through which he can show that he
belongs to the protected class.” Montgomery, 136 S. Ct.
at 735. Both rules apply to juvenile sentences imposed
after Miller.
However, only Miller’s substantive rule applies
to juvenile sentences imposed before Miller was decided. See Montgomery, 136 S. Ct. at 736. States must
ensure that juveniles whose crimes reflected only
transient immaturity will not be forced to serve a

35a
disproportionate sentence in violation of the Eighth
Amendment, but Miller “does not require States to relitigate sentences” so a sentencing judge can consider
youthfulness under the procedures Miller established
“in every case where a juvenile offender received mandatory life without parole.” Montgomery, 136 S. Ct. at
736. Instead, States can establish their own procedures to remedy such sentences retroactively, including “by permitting juvenile homicide offenders to be
considered for parole.” Montgomery, 136 S. Ct. at 736
(citing WYO. STAT. ANN. § 6-10-301(c) (2013) (“juvenile
homicide offenders eligible for parole after 25 years”)).1
Under the Eighth Amendment, the procedural sentencing requirements Miller prescribed do not apply
retroactively.
Houston-Sconiers announced a similar procedural
rule that should not apply retroactively. It does not bar
any particular punishment for a category of offender
but, instead, requires the sentencing court to consider
a juvenile offender’s youthful attributes with the
knowledge it has the discretion to impose a sentence
1

Two years ago, this court approved Washington’s similar “Miller ﬁx” statute—RCW 9.94A.730, which allows juvenile offenders
sentenced as adults to petition for early release after serving 20
years—without dissent. State v. Scott, 190 Wn.2d 586, 597, 416
P.3d 1182 (2018) (“Montgomery provides that the Washington
Miller ﬁx statute’s parole provision cures the Miller violation in
Scott’s case.”), 603 (Gordon McCloud, J., concurring) (agreeing
“that under current Eighth Amendment precedent, RCW
9.94A.730 . . . provides an adequate remedy for the Miller violation” and writing separately “to clarify that the adequacy of the
statutory remedy available to Scott . . . remains an open question
[only] under Washington law”).

36a
below the standard SRA range because of those attributes. 188 Wn.2d at 21. So long as those proper procedures are followed, Houston-Sconiers does not
categorically place any sentence beyond the authority
of the judge to impose. The majority seemingly recognizes this: “a juvenile could receive a sentence within
the adult standard range if the sentencing court complies with the dual requirements of Houston-Sconiers.”
Majority at 19. Because Houston-Sconiers does not categorically bar any SRA sentence for juvenile offenders,
it should not be viewed as announcing a substantive
rule. See Montgomery, 136 S. Ct. at 729 (“Substantive
rules . . . set forth categorical constitutional guarantees that place certain . . . punishments altogether beyond the State’s power to impose.”). Because HoustonSconiers did not announce a substantive rule, it does
not apply retroactively.
The majority disagrees, reasoning that “Miller and
Montgomery compel the conclusion that HoustonSconiers is a new substantive constitutional rule” because “[o]ur holding in Houston-Sconiers contains the
same substantive and procedural components as Miller.” Majority at 18, 21. I disagree because this conclusion, in my view, blurs the distinction between Miller’s
substantive and procedural components and consequently it mischaracterizes the nature of HoustonSconiers’ s holding in three ways.
First, I disagree with the majority’s claim that
Houston-Sconiers is like Miller because both “announced a procedural component as a mechanism to
protect the substantive rule.” Majority at 20. But

37a
unlike Miller, the majority’s description of HoustonSconiers fails to provide an adequate distinction between the substantive and procedural components.
The United States Supreme Court has discussed how
Miller’s substantive rule is distinct from the procedure
protecting the rule: “Even if a court considers a child’s
age before sentencing him or her to a lifetime in prison,
that sentence still violates the Eighth Amendment for
a child whose crime reﬂects ‘unfortunate yet transient
immaturity.” ’ ” Montgomery, 136 S. Ct. at 734 (quoting
Miller, 567 U.S. at 479 (quoting Roper v. Simmons, 543
U.S. 551, 573, 125 S. Ct. 1183, 161 L. Ed. 2d 1 (2005))).
Miller announced a substantive rule precisely because
it took a category of punishment (life without parole
sentences) off the table for a class of offenders (juveniles whose crimes reﬂect the transient immaturity of
youth) regardless of the procedures followed in imposing that punishment. In contrast, Houston-Sconiers announced a procedural rule because it took a category of
punishment (standard SRA sentences and enhancements) off the table for a class of offenders (juveniles)
unless the sentencing judge considers the mitigating
qualities of youth at sentencing with the knowledge it
has the discretion to impose a lesser sentence because of
those qualities. 188 Wn.2d at 21. What this means is
that the sentencing judge retains discretion to determine the appropriate sentence under the SRA and the
sentencing range remains the same.
That is the difference I see in these cases. Miller’s
substantive rule is categorical and distinct from its
procedural requirements, while Houston-Sconiers’s

38a
holding is conditional and can best be described in
terms of its procedural requirements.
Second, I disagree with the majority that the “fact
that a juvenile could receive a sentence within the
adult standard range” after Houston-Sconiers “does
not render Houston-Sconiers procedural.” Majority at
19. The majority bases this conclusion on the fact that
Miller applies retroactively even though “Miller did
not foreclose a sentencing court’s ability to impose
LWOP [life without parole] on all juveniles; it acknowledged that such a punishment may be appropriate for
‘the rare juvenile offender whose crime reﬂects irreparable corruption.’ ” Majority at 19-20 (quoting Miller,
567 U.S. at 479-80). But I view that reading of Miller
as being rejected by the United States Supreme Court
in Mongtomery. Miller did not purport to categorically
bar life without parole for all juvenile offenders:
“Miller drew a line between children whose crimes reﬂect transient immaturity and those rare children
whose crimes reﬂect irreparable corruption.” Montgomery, 136 S. Ct. at 734. That Miller’s substantive
rule does not bar life without parole for every single
juvenile offender does not make it equivalent to Houston-Sconiers’s procedural rules.
Finally, I disagree that the difference between
Miller and Houston-Sconiers “is one of scope, not of
kind.” Majority at 22. The United States Supreme Court
has reasoned: “Life-without-parole terms . . . ‘share some
characteristics with death sentences that are shared
by no other sentences.’ ” Miller, 567 U.S. at 474 (quoting Graham, 560 U.S. at 69). But Houston-Sconiers

39a
concerns the “other sentences” that do not share characteristics of life without parole or the death penalty.
According to Miller itself, that difference is one of kind
and not merely of scope.
And the difference between the “ultimate penalt[ies] for juveniles” and lesser sentences is crucial.
Miller, 567 U.S. at 475. After all, the Eighth Amendment “ ‘does not require strict proportionality between
crime and sentence,’ but rather ‘forbids only extreme
sentences that are grossly disproportionate to the
crime.’ ” Graham, 560 U.S. at 60 (internal quotations
marks omitted) (quoting Harmelin, 501 U.S. at 1001).
The analytical justiﬁcations that inform the substantive rules announced in Roper, Graham, and Miller
should not apply to the lesser sentences, however long
in duration.
While I agree Houston-Sconiers proscribes new,
better methods of determining a juvenile offender’s
culpability, not every juvenile offender previously sentenced as an adult is suffering from an unconstitutionally cruel and unusual punishment. That conclusion is
not supported by the United States Supreme Court’s
decisions in Roper, Graham, Miller, or Montgomery or
the Eighth Amendment itself. Accordingly, I dissent.

40a
CONCLUSION
I would hold that Houston-Sconiers’s rules are procedural and apply only prospectively. I would therefore
dismiss the personal restraint petition.
/s/ Johnson, J.
/s/ Madsen, J.
/s/ Stephens, C.J.

41a
IN THE SUPREME COURT OF THE
STATE OF WASHINGTON
In the Matter of the Personal ) No. 97205-2
Restraint of:
) EN BANC
)
ENDY DOMINGO) Filed
CORNELIO,
) September 17, 2020
Petitioner.
)
MONTOYA-LEWIS, J.—“Children are different.’ ”
State v. Houston-Sconiers, 188 Wn.2d 1, 8, 391 P.3d 409
(2017) (quoting Miller v. Alabama, 567 U.S. 460, 480,
132 S. Ct. 2455, 183 L. Ed. 2d 407 (2012)). The differences between children’s and adults’ culpability matter on a constitutional level in criminal sentencing.
State v. Ramos, 187 Wn.2d 420, 428, 387 P.3d 650
(2017). In Houston-Sconiers, we held that the Eighth
Amendment to the United States Constitution requires
courts to consider the mitigating circumstances of
youth when sentencing juveniles adjudicated as adults
and must have absolute discretion to impose anything
less than the standard adult sentence based on youth.
188 Wn.2d at 19. In this case and its companion case,
In re Personal Restraint of Ali, No. 97205-2, slip op.
(Wash. Sept. 17, 2020), https:/www.courts.wa.gov/opinions/,
we consider whether Houston-Sconiers constitutes a
signiﬁcant and material change in the law that requires retroactive application on collateral review. As
in Ali, we hold that it does.

42a
I.

FACTS AND PROCEDURAL HISTORY

A. Factual Background
In 2014, Endy Domingo-Cornelio was convicted by
a jury of one count of ﬁrst degree rape of a child and
three counts of child molestation. The crimes took
place over a two-year span when Domingo-Cornelio
was between 15-17 years old,1 but because of delayed
reporting, he was not investigated or charged until several years later, when he was 20 years old. DomingoCornelio was convicted and sentenced as an adult.
Under the Sentencing Reform Act of 1981 (SRA),
ch. 9.94A RCW, Domingo-Cornelio faced a sentence
between 240 and 318 months. At sentencing, the
State recommended the maximum adult standard
range of 318 months, followed by 36 months of community custody. In its recommendation, the State
acknowledged that Domingo-Cornelio was under 18
at the time of the crimes to explain why an indeterminate sentence would not apply and why it was
seeking 36 months of community custody instead of
lifetime community custody.

1

The Court of Appeals erroneously indicated that DomingoCornelio was between 14-16 years old at the time of the offenses.
In re Pers. Restraint of Domingo-Cornelio, No. 50818-4-II, slip op.
at 2 (Wash. Ct. App. Mar. 8, 2019) (unpublished), https://www.courts.
wa.gov/opinions/pdf/D2%2050818-4-II%20Unpublished%20Opinion.
pdf. The offenses occurred between November 2007 and November 2009, when Domingo-Cornelio was between 15-17 years old.
Clerk’s Papers at 1-2.

43a
Domingo-Cornelio’s defense counsel requested 240
months, the low end of the standard range. Defense
counsel also mentioned that Domingo-Cornelio was
under 18 at the time of the crimes but did not argue
that there were any mitigating factors due to his youth
and did not request an exceptional sentence:
My client has a lot of family support, Your
Honor. He was a juvenile when these incidents took place. I would like the Court to consider the fact that my client did not take the
witness stand at this trial. He sat through the
trial. He heard what was testiﬁed to.
The standard range starts out at 20
years, Your Honor, 240 months. Now, I don’t
know what beneﬁt to either my client’s psychological or psychosexual health or to society
or to the victim and their family it would do to
give him more than the low end. 20 years,
Your Honor. He is barely 20 himself. 20 years
is a very long time in prison, and yes, the
standard range goes above that quite a bit,
but I would ask the Court to consider that the
victim seems to be progressing through school
right on time, on course. I believe she has been
able to move on with her life after these acts,
and I am glad that she has, and I hope that
she has a decent – better than decent, a good
life.
I think that society, in general, does not
demand acts that a teenager did, which
weren’t reported for four or ﬁve years, should
result in more than 20 years in prison, and I’m
asking that the Court consider all of the facts

44a
here, the lack of information from the family
of the victim in the Presentence Investigation,
and consider that Endy Domingo[-]Cornelio
will be in prison for a minimum for 240
months, and that is long enough, Your Honor.
7 Verbatim Report of Proceedings (Sept. 25, 2014)
(VRP) at 731-32. In addition to the presentence investigation report mentioned in the excerpt above, the
sentencing judge considered several letters written in
support of Domingo-Cornelio.
The court sentenced Domingo-Cornelio to the low
end of 240 months of incarceration and 36 months of
community custody supervision upon release. The sentencing judge said that she had read the letters from
friends and family and imposed this sentence “considering all of the information before the Court,” but she
made no mention of Domingo-Cornelio’s youth in her
ruling. 7 VRP at 733.
B. Procedural History
Domingo-Cornelio appealed unsuccessfully, and
we denied discretionary review on August 31, 2016. We
decided Houston-Sconiers on March 2, 2017, after Domingo-Cornelio’s judgment and sentence became ﬁnal.
Domingo-Cornelio ﬁled his personal restraint petition
(PRP) in the Court of Appeals on August 30, 2017.
In his PRP, Domingo-Cornelio argued ineffective
assistance of counsel and signiﬁcant changes in the
law relating to juvenile sentencing. The Court of Appeals retained the PRP for consideration on the merits

45a
but ultimately denied relief. Domingo-Cornelio, No.
50818-4-II, slip op. at 1. Relevant here, the Court of
Appeals held that Houston-Sconiers did not constitute
a signiﬁcant change in the law because it did not overturn a prior appellate decision that was determinative
of a material issue. Id. at 34. The court did not address
materiality or retroactivity.
We granted review only on the issue of the applicability and effect of Houston-Sconiers. We also set a companion case, Ali, slip op. at 6, for consideration.
II.

ANALYSIS

Domingo-Cornelio ﬁled his PRP within one year
after his judgment and sentence became ﬁnal, so his
PRP is timely. RCW 10.73.090. The court will grant appropriate relief if his restraint is unlawful for one or
more reasons speciﬁed under RAP 16.4(c). RAP 16.4(a).
Under RAP 16.4(c)(4), continued restraint is unlawful
if “[t]here has been a signiﬁcant change in the law,
whether substantive or procedural, which is material
to the . . . sentence, . . . and sufﬁcient reasons exist to
require retroactive application of the changed legal
standard.”
A. Unlawful Restraint
In Houston-Sconiers, we held that when sentencing juveniles in adult court, “courts must consider mitigating qualities of youth” and “must have discretion to
impose any sentence below the otherwise applicable

46a
SRA range and/or sentence enhancements.”2 188
Wn.2d at 21. Although there are several factual and
procedural differences between Domingo-Cornelio’s
case and the companion case, Ali, we conclude that
Houston-Sconiers constitutes a signiﬁcant change in
the law material to both cases and that it requires retroactive application.3
1. Significant Change in the Law
Houston-Sconiers represents a signiﬁcant change
in the law. Ali, slip op. at 11-13. “ ‘One test to determine
whether an [intervening case] represents a signiﬁcant
change in the law is whether the defendant could have
argued this issue before publication of the decision.’ ”
State v. Miller, 185 Wn.2d 111, 115, 371 P.3d 528 (2016)
(alteration in original) (internal quotation marks
omitted) (quoting In re Pers. Restraint of Lavery, 154

2

We rely on the summary of Houston-Sconiers in the companion case, Ali, slip op. at 710, for the animating principles of
Houston-Sconiers.
3
Because the requirements for a signiﬁcant, material, and
retroactive change in the law under RCW 10.73.100(6) are echoed
in RAP 16.4(c)(4), we rely on our analysis of those requirements
in Ali, slip op. at 11-23. However, since Domingo-Cornelio’s petition is timely, he does not need to meet the requirements of RCW
10.73.100(6) for us to consider his petition; he needs only to establish that his restraint is unlawful under RAP 16.4(c).

47a
Wn.2d 249, 258-59, 111 P.3d 837 (2005)).4 Here, even
if Domingo-Cornelio’s sentencing court had discretion
to impose a lower sentence prior to Houston-Sconiers,
Domingo-Cornelio could not have argued that it must
consider his youth before imposing a standard range
sentence. Domingo-Cornelio could have, and did, argue
for a low end standard range sentence based, in part,
on his youth. However, he could not have argued that
the sentencing court must consider mitigating factors
relating to his youth in light of its absolute discretion
to impose any lesser sentence. Therefore, HoustonSconiers constitutes a signiﬁcant change in the law.5
2. Materiality
Houston-Sconiers is material to Domingo-Cornelio’s
case. Domingo-Cornelio was sentenced to a standard
adult range under the SRA for crimes he committed as
a child, one of the types of sentences that required the
4

See also In re Pers. Restraint of Greening, 141 Wn.2d 687,
697 & n.9, 9 P.3d 206 (2000) (“While litigants have a duty to raise
available arguments in a timely fashion and may later be procedurally penalized for failing to do so, . . . they should not be
faulted for having omitted arguments that were essentially unavailable at the time.” “While the State correctly notes that ‘Washington case law is replete with examples of defendants
challenging standing case law and succeeding in reversing that
law,’ we do not believe procedural restrictions should penalize litigants who fail to do so.” (citation omitted)).
5
Unlike in Ali, State v. Brown, 139 Wn.2d 20, 29, 983 P.2d
608 (1999), would not have applied to Domingo-Cornelio because
he was not sentenced to any weapon enhancements. However,
Houston-Sconiers nevertheless meets the test for a signiﬁcant
change in the law under the above test.

48a
consideration of youth in Houston-Sconiers. 188 Wn.2d
at 21. The sentencing court imposed a low end standard adult sentence—which defense counsel characterized as the “minimum” sentence—for crimes
Domingo-Cornelio committed as a child. 7 VRP at 732.
Under Houston-Sconiers, the sentencing court had discretion to impose an exceptional downward sentence
and it was required to consider mitigating circumstances of youth at sentencing, which it appears it did
not do.
The State argues that Houston-Sconiers is a signiﬁcant change in the law only because it permits sentencing courts to depart from mandatory ﬁrearm
enhancements that would deny a juvenile offender
meaningful opportunity for release in their lifetime,
and that the signiﬁcant change is not material to
Domingo-Cornelio because he was not sentenced to
any weapon enhancements and did not receive a de
facto life sentence. As we stated in Ali, slip op. at 13,
this is wrong. We stated explicitly in Houston-Sconiers
that “[t]rial courts must consider the mitigating qualities of youth at sentencing and must have discretion to
impose any sentence below the otherwise applicable
SRA range and/or sentence enhancements.” 188 Wn.2d
at 21 (emphasis added). In that case, the State recommended a sentence below the SRA range—zero months
on the substantive crimes that otherwise would have
carried SRA ranges but the full time for mandatory
weapon enhancements—which it believed to be “just”
but “technically illegal.” Id. We disagreed with the
State’s and sentencing judge’s belief that it was illegal

49a
to impose zero months for the substantive crimes instead of a sentence within the SRA range and held
that sentencing courts must have discretion to impose
any sentence below the otherwise applicable SRA
range in light of the mitigating circumstances of the
defendant’s youth. Id. Thus, the fact that the defendants in Houston-Sconiers were sentenced to time only
for the weapon enhancements does not mean that the
case was limited to such enhancements. We made clear
that our holdings applied equally to any otherwise applicable SRA range or enhancement. Id.6
Domingo-Cornelio received the kind of sentence
that implicates Houston-Sconiers; thus, that case is
material. The change in the law is material to adult
standard range sentences imposed for crimes the defendant committed as a child. Prior to HoustonSconiers, Domingo-Cornelio could not have argued
that the court was required to consider his youth at
sentencing or that it had to consider whether his youth
justiﬁed any exceptional sentence downward in light of
its absolute discretion.

6

See also State v. Gilbert, 193 Wn.2d 169, 175-76, 438 P.3d
133 (2019) (“We held [in Houston-Sconiers] that sentencing courts
possess this discretion to consider downward sentences for juvenile offenders regardless of any sentencing provision to the contrary. . . . Our opinion in that case cannot be read as conﬁned to
the ﬁrearm enhancement statutes as it went so far as to question
any statute that acts to limit consideration of the mitigating factors of youth during sentencing.”) (ﬁrst emphasis added).

50a
3. Retroactivity
A new rule applies retroactively on collateral review only if it is a new substantive rule of constitutional law or a watershed rule of criminal procedure.
See Montgomery v. Louisiana, ___ U.S., ___, 136 S. Ct.
718, 728, 193 L. Ed. 2d 599 (2016) (citing Teague v.
Lane, 489 U.S. 288, 109 S. Ct. 1060, 103 L. Ed. 2d 334
(1989)). As we held in Ali, “Houston-Sconiers applies
retroactively because it announced (1) a new rule (2) of
constitutional magnitude (3) that is substantive.” Ali,
slip op. at 15.
First, Houston-Sconiers announced a new rule,
holding that the Eighth Amendment requires sentencing courts to consider mitigating circumstances of
youth and to have absolute discretion to impose any
sentence below the SRA range or enhancements in order to protect juveniles who lack adult culpability from
disproportionate punishment. 188 Wn.2d at 19-21; Ali,
slip op. at 15. The requirement that sentencing courts
must consider youth and must have discretion to impose any exceptional sentence downward based on
youth were not dictated by existing precedent at the
time Domingo-Cornelio’s sentence became ﬁnal, so
Houston-Sconiers announced a new rule. Ali, slip op. at
15; In re Pers. Restraint of Yung-Cheng Tsai, 183 Wn.2d
91, 104, 351 P.3d 138 (2015).
Second, we decided Houston-Sconiers on constitutional grounds. 188 Wn.2d at 18-19; Ali, slip op. at 16.
Houston-Sconiers followed a line of United States
Supreme Court cases holding “that the Eighth

51a
Amendment to the United States Constitution compels
us to recognize that children are different.” 188 Wn.2d
at 18 (citing Miller, 567 U.S. at 480; Graham v. Florida,
560 U.S. 48, 68-70, 130 S. Ct. 2011, 176 L. Ed. 2d 825
(2010); Roper v. Simmons, 543 U.S. 551, 569-70, 125
S. Ct. 1183, 161 L. Ed. 2d 1 (2005)); see also Ali, slip op.
at 8, 16.
Third, Houston-Sconiers announced a substantive
constitutional rule. Ali, slip op. at 16-23. Substantive
rules include “ ‘rules prohibiting a certain category of
punishment for a class of defendants because of their
status or offense.’ ” Montgomery, 136 S. Ct. at 729
(quoting Penry v. Lynaugh, 492 U.S. 302, 330, 109 S. Ct.
2934, 106 L. Ed. 2d 256 (1989), abrogated on other
grounds by Atkins v. Virginia, 536 U.S. 304, 122 S. Ct.
2242, 153 L. Ed. 2d 335 (2002)). Houston-Sconiers
identiﬁed a category of punishments that are beyond
courts’ authority to impose: adult standard SRA
ranges and enhancements for juveniles who possess
such diminished culpability that those sentences
would be disproportionate punishment. Ali, slip op. at
17; Houston-Sconiers, 188 Wn.2d at 19-21. It also established the mechanism necessary to effectuate that
substantive rule. The Eighth Amendment requires
trial courts to exercise discretion to consider the mitigating qualities of youth at sentencing in order to protect the substantive constitutional guaranty of
punishment proportionate to culpability. Ali, slip op. at
17; Houston-Sconiers, 188 Wn.2d at 19-20; see also
Montgomery, 136 S. Ct. at 732-33.

52a
Houston-Sconiers constitutes a signiﬁcant change
in the law that is material to Domingo-Cornelio’s sentence and requires retroactive application. Ali, slip op.
at 23. Domingo-Cornelio is entitled to resentencing if
he demonstrates actual and substantial prejudice and
there are no other adequate remedies available. RAP
16.4.
B. Prejudice
A petitioner must demonstrate by a preponderance of the evidence that he was actually and substantially prejudiced by the constitutional error in order to
obtain relief on collateral review. In re Pers. Restraint
of Davis, 152 Wn.2d 647, 671-72, 101 P.3d 1 (2004). In
Houston-Sconiers, we explained that Miller requires
discretion to impose any sentence below the SRA range
or enhancements based on youth, and “provides the
guidance on how to use it.” 188 Wn.2d at 23 (listing
mitigating circumstances of youth that courts must
consider). Here, there is no evidence to suggest that the
sentencing court considered any mitigating circumstances relating to Domingo-Cornelio’s youth. Instead,
the only relevant information presented to the sentencing court was Domingo-Cornelio’s age at the time
of the crimes. Moreover, defense counsel erroneously
characterized the low end of the adult standard range
as the “minimum” sentence for Domingo-Cornelio. 7
VRP at 732.

53a
In Ali, we found that the petitioner had established actual and substantial prejudice by a preponderance of the evidence when the sentencing court was
presented with signiﬁcant evidence of mitigating circumstances of the petitioner’s youth, defense counsel
requested an exceptional sentence based on youth, and
the court imposed the low end of the SRA range, believing it lacked discretion to impose anything less.
Ali, slip op. at 25-26. There, the evidence of prejudice
was overwhelming. However, actual and substantial
prejudice is not limited to circumstances where defense counsel makes an argument that is not legally
available and the sentencing judge explicitly states
that they would deviate from the SRA on that basis if
they could.
We do not expect lawyers to make every conceivable argument on the possibility that it may someday be
recognized as a basis for an exceptional sentence.7 Nor
do we expect sentencing judges to always signal in
their oral rulings that they would exercise more discretion if they felt they had the authority to do so. Instead,
a petitioner establishes actual and substantial prejudice when a sentencing court fails to consider mitigating factors relating to the youthfulness of a juvenile
tried as an adult and/or does not appreciate its discretion to impose any exceptional sentence in light of that
consideration.

7

See Greening, 141 Wn.2d at 697 & n.9 (litigants should not
be penalized for failing to raise unavailable arguments).

54a
Unless the court meaningfully considers youth
and knows it has absolute discretion to impose a lower
sentence, we cannot be certain that an adult standard
range was imposed appropriately on a juvenile under
Houston-Sconiers. Here, there is no evidence that the
sentencing judge considered any mitigating qualities
of Domingo-Cornelio’s youth or that she knew she had
discretion to impose an exceptional sentence based on
youth, just that she was aware of his age at the time of
the crimes. Domingo-Cornelio’s counsel did not argue
any mitigating factors relating to youthfulness or request an exceptional sentence. The sentencing judge
said nothing about whether Domingo-Cornelio’s youth
mitigated his culpability. But silence does not constitute reasoning. See Ramos, 187 Wn.2d at 444 (requiring courts sentencing juveniles to life without parole to
“thoroughly explain [their] reasoning” as to why a juvenile deserves such a sentence, “speciﬁcally considering the differences between juveniles and adults” in
the process). That Domingo-Cornelio’s sentencing
judge imposed the lowest standard range sentence
when the State recommended the high end sentence is
evidence that the judge was willing to consider mitigating factors that justify a lower sentence. More likely
than not, Domingo-Cornelio would have received a
lesser sentence had the court complied with the dual
mandates of Houston-Sconiers.
Domingo-Cornelio has met his burden to establish
prejudice. He has established that his sentencing did
not comply with Houston-Sconiers and that more likely
than not, he would have received a lesser sentence if it

55a
had. Domingo-Cornelio is entitled to relief by this PRP
because his restraint is unlawful, he has been actually
and substantially prejudiced, and the State does not
dispute that the other remedies are inadequate under
the circumstances.8
III.

CONCLUSION

Houston-Sconiers announced a signiﬁcant change
in the law, which is material to Domingo-Cornelio’s
sentence and requires retroactive application. DomingoCornelio was actually and substantially prejudiced by
the sentencing court’s failure to meaningfully consider
youth and to appreciate its absolute discretion to impose a sentence below the adult SRA range for crimes
he committed as a child. Domingo-Cornelio’s PRP is
granted, and we order resentencing consistent with
Houston-Sconiers.
/s/ Montoya-Lewis, J

8

The court “will only grant relief by a [PRP] if other remedies which may be available to the petitioner are inadequate under the circumstances.” RAP 16.4(d). Unlike in Ali, the State
does not contend that the Miller-ﬁx statute, RCW 9.94A.730,
could provide adequate relief to Domingo-Cornelio. That statute
would permit Domingo-Cornelio to petition for early release after
he serves 20 years—the full term of the sentence he originally received in violation of Houston-Sconiers—which is no relief at all.

56a
WE CONCUR:
/s/ González, J.
/s/ Gordon McCloud, J.
/s/ Yu, J.
/s/ Owens, J

/s/ Wiggins, JPT

JOHNSON, J. (dissenting)—For the reasons
stated in my dissenting opinion in In re Personal Restraint of Ali, No. 95578-6, I dissent.
/s/ Johnson, J.
/s/ Stephens, C.J.
/s/ Madsen, J.

57a
RELEVANT STATUTORY PROVISIONS
Wash. Rev. Code § 9.94A.533 (2020)
Adjustments to standard sentences.
(1) The provisions of this section apply to the
standard sentence ranges determined by RCW
9.94A.510 or 9.94A.517.
*

*

*

(4)(a) The following additional times shall be
added to the standard sentence range for felony crimes
committed after July 23, 1995, if the offender or an accomplice was armed with a deadly weapon other than
a ﬁrearm as deﬁned in RCW 9.41.010 and the offender
is being sentenced for one of the crimes listed in this
subsection as eligible for any deadly weapon enhancements based on the classiﬁcation of the completed felony crime. If the offender is being sentenced for more
than one offense, the deadly weapon enhancement or
enhancements must be added to the total period of conﬁnement for all offenses, regardless of which underlying offense is subject to a deadly weapon enhancement.
If the offender or an accomplice was armed with a
deadly weapon other than a ﬁrearm as deﬁned in RCW
9.41.010 and the offender is being sentenced for an anticipatory offense under chapter 9A.28 RCW to commit
one of the crimes listed in this subsection as eligible for
any deadly weapon enhancements, the following additional times shall be added to the standard sentence
range determined under subsection (2) of this section
based on the felony crime of conviction as classiﬁed under RCW 9A.28.020:

58a
Two years for any felony deﬁned under any law as
a class A felony or with a statutory maximum sentence
of at least twenty years, or both, and not covered under
(f ) of this subsection;
*

*

*

(4)(e)(ii) Notwithstanding any other provision of
law, all deadly weapon enhancements under this section are mandatory, shall be served in total conﬁnement, and shall run consecutively to all other
sentencing provisions, including other ﬁrearm or
deadly weapon enhancements, for all offenses sentenced under this chapter. However, whether or not a
mandatory minimum term has expired, an offender
serving a sentence under this subsection may be:
Released under the provisions of RCW 9.94A.730;
*

*

*

(15) Regardless of any provisions in this section,
if a person is being sentenced in adult court for a crime
committed under age eighteen, the court has full discretion to depart from mandatory sentencing enhancements and to take the particular circumstances
surrounding the defendant’s youth into account.

59a
Wash. Rev. Code § 9.94A.535 (2020)
Departures from the guidelines.
The court may impose a sentence outside the
standard sentence range for an offense if it ﬁnds, considering the purpose of this chapter, that there are
substantial and compelling reasons justifying an exceptional sentence. Facts supporting aggravated sentences, other than the fact of a prior conviction, shall
be determined pursuant to the provisions of RCW
9.94A.537.
*
(1)
sider

*

*

Mitigating Circumstances—Court to Con-

The court may impose an exceptional sentence below the standard range if it ﬁnds that mitigating circumstances are established by a preponderance of the
evidence. The following are illustrative only and are
not intended to be exclusive reasons for exceptional
sentences.
*

*

*

(e) The defendant’s capacity to appreciate the
wrongfulness of his or her conduct, or to conform his or
her conduct to the requirements of the law, was significantly impaired. Voluntary use of drugs or alcohol is
excluded.
*

*

*

60a
Wash. Rev. Code § 9.94A.730 (2020)
Early release for persons convicted of one or
more crimes committed prior to eighteenth
birthday—Petition to indeterminate sentence
review board—Conditions—Assessment, programming, and services—Examination—Hearing—Supervision—Denial of petition.
(1) Notwithstanding any other provision of this
chapter, any person convicted of one or more crimes
committed prior to the person’s eighteenth birthday
may petition the indeterminate sentence review board
for early release after serving no less than twenty
years of total conﬁnement, provided the person has not
been convicted for any crime committed subsequent to
the person’s eighteenth birthday, the person has not
committed a disqualifying serious infraction as deﬁned
by the department in the twelve months prior to ﬁling
the petition for early release, and the current sentence
was not imposed under RCW 10.95.030 or 9.94A.507.
*

*

*

Wash. Rev. Code § 10.95.030 (2020)
Sentences for aggravated ﬁrst degree murder.
(1) Except as provided in subsections (2) and (3)
of this section, any person convicted of the crime of
aggravated ﬁrst degree murder shall be sentenced to
life imprisonment without possibility of release or parole. A person sentenced to life imprisonment under
this section shall not have that sentence suspended,

61a
deferred, or commuted by any judicial ofﬁcer and the
indeterminate sentence review board or its successor
may not parole such prisoner nor reduce the period of
conﬁnement in any manner whatsoever including but
not limited to any sort of good-time calculation. The department of social and health services or its successor
or any executive ofﬁcial may not permit such prisoner
to participate in any sort of release or furlough program.
*

*

*

(3)(a)(i) Any person convicted of the crime of aggravated ﬁrst degree murder for an offense committed
prior to the person’s sixteenth birthday shall be sentenced to a maximum term of life imprisonment and a
minimum term of total conﬁnement of twenty-ﬁve
years.
(ii) Any person convicted of the crime of aggravated ﬁrst degree murder for an offense committed
when the person is at least sixteen years old but less
than eighteen years old shall be sentenced to a maximum term of life imprisonment and a minimum term
of total conﬁnement of no less than twenty-ﬁve years.
A minimum term of life may be imposed, in which
case the person will be ineligible for parole or early
release.
(b) In setting a minimum term, the court must
take into account mitigating factors that account for
the diminished culpability of youth as provided in
Miller v. Alabama, 132 S.Ct. 2455 (2012) including,
but not limited to, the age of the individual, the youth’s

62a
childhood and life experience, the degree of responsibility the youth was capable of exercising, and the
youth’s chances of becoming rehabilitated.
*

*

*

Wash. Rev. Code § 36.27.130 (2020)
Felony resentencing.
(1) The prosecutor of a county in which an offender was sentenced for a felony offense may petition
the sentencing court or the sentencing court’s successor to resentence the offender if the original sentence
no longer advances the interests of justice.
(2) The court may grant or deny a petition under
this section. If the court grants a petition, the court
shall resentence the defendant in the same manner as
if the offender had not previously been sentenced, provided the new sentence, if any, is no greater than the
initial sentence.
(3) The court may consider postconviction factors
including, but not limited to, the inmate’s disciplinary
record and record of rehabilitation while incarcerated;
evidence that reflects whether age, time served, and
diminished physical condition, if any, have reduced
the inmate’s risk for future violence; and evidence
that reﬂects changed circumstances since the inmate’s
original sentencing such that the inmate’s continued

63a
incarceration no longer serves the interests of justice.
Credit shall be given for time served.
*

*

*

